La
I

Q@OCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-373
JAMES WALKER,
Petitioner,
v.
UNITED STATES,
Respondent.
AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF AND
BRIEF OF NATIONAL ASSOCIATION FOR PUBLIC DEFENSE AS AMICUS CURIAE IN SUPPORT OF PETITIONER

in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly
addressed to the following:

SEE ATTACHED
To be filed for:
EMILY HUGHES DANIEL T. HANSMEIER
Co-Chair Amicus Counsel of Record
Committee 500 State Avenue
NATIONAL ASSOCIATION Suite 201
FOR PUBLIC DEFENSE Kansas City, KS 66101

474 Boyd Law Building
University of lowa
College of Law

Towa City, LA 52242

(913) 551-6712
daniel_hansmeier@fd.org

Counsel for Amicus Curiae

Subscribed and sworn to before me this 13th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ccoence, A Oe

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 30348
SERVICE LIST

Kannon K. Shanmugam
Counsel of Record
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Petitioner James Walker

Noel Francisco

Solicitor General of the United States
Counsel of Record

United States Department of Justice

Room 5616

950 Pennsylvania Ave. N.W.

Washington, DC 20530

(202) 514-2217

SupremeCtBriefs@USDOJ.gov

Counsel for Respondent United States
